      sc.RVlCES
     Si.ilVICES




('       ~
              DEPARTMENT OF
                                    OF HEALTH
                                       HEALTH & & HUMAN
                                                  HUMA  SERVICES
                                                        SERVICES                                                    Office
                                                                                                                    Office of Inspector General
                                                                                                                                        General
 ~~.~::
 <~.~~
(" ;ø DEPARTMENT

                                                                                                                    Washington,
                                                                                                                    Washington, D.C.
                                                                                                                                D.C. 20201
                                                                                                                                      20201





                                                                   DEC
                                                                   DEC -- 88 2008

                                                                              2008
                    TO:              RADM W.
                                     RADM    W. Craig Vanderwagen, M.D.
                                     Assistant Secretary for Preparedness and Response

                                     Elizabeth M. Duke, Ph.D.
                                     Administrator
                                     Health Resources
                                            Resources and
                                                       and Services   ministration
                                                            Services ministration




                    FROM:         ~p&t:i
                                  ~p~J:
                                ~:;uty     Inspector
                                ~:;uty Inspector     General
                                                  General forforAudit
                                                                 AuditServices

                                                                       Services


                    SUBJECT: Allowability ofAllowability of Costs Claimed for Reimbursement Under Alabama's
                    SUBJECT:                                                                       Alabama's Bioterrorism
                                                                                                              Bioterrorism
                                            Hospital Preparedness Program for the Period September 1, 2004, Through
                                     August 31, 2006
                                                2006 (A-04-07-01049)


                    Attached is an advance copy of our final report on the allowability of costs claimed for
                    reimbursement under Alabama's
                                         Alabama's Bioterrorism
                                                     Bioterrorism Hospital
                                                                     Hospital Preparedness
                                                                              Preparedness Program
                                                                                              Program(the(the program)
                                                                                                              program) for
                                                                                                                        for
                    the period September
                               September 1,
                                         1, 2004,
                                            2004, through
                                                   through August
                                                             August 31,
                                                                      31,2006.
                                                                          2006. We
                                                                                We will
                                                                                    wil issue
                                                                                          issue this
                                                                                                 this report
                                                                                                      report to the
                    Alabama Department
                              Deparment of
                                         ofPublic
                                            Public Health
                                                    Health (the
                                                            (the State
                                                                 State agency)
                                                                       agency) within
                                                                                within 55 business
                                                                                           business days.
                                                                                                      days.

                    Under section 319 of of the Public Health Service Act, the program provides funds to State,State,
                    territorial, and municipal
                    territorial, and  municipalgovernments
                                                 governents ororhealth
                                                                 healthdeparments
                                                                         departmentstotoupgrade
                                                                                         upgrade the
                                                                                                  the preparedness
                                                                                                      preparedness of
                    hospitals and collaborating entities to respond to bioterrorism and other public health
                    emergencies.
                    emergencies. FromFrom April
                                          April 2002
                                                 2002 to
                                                       to March
                                                          March 2007,
                                                                 2007, the
                                                                        the Health
                                                                            Health Resources and Services
                                                                                                    Services
                    Administration administered the program.
                                                        program. In
                                                                  In March
                                                                     March 2007,
                                                                             2007, responsibility
                                                                                   responsibility for
                                                                                                   for the
                                                                                                        the program
                                                                                                            program was
                                                                                                                      was
                    transferred to the Assistant Secretary
                                                  Secretary for
                                                            for Preparedness
                                                                Preparedness and
                                                                               and Response.
                                                                                   Response.

                    Our objective was to determine whether selected costs that the State agency claimed for
                                                                                                        for
                    reimbursement under the program
                                              program for
                                                       for the
                                                           the period
                                                               period September
                                                                      September 1,
                                                                                1, 2004,
                                                                                   2004, through
                                                                                         through August
                                                                                                 August 31,
                                                                                                         31, 2006,
                                                                                                             2006,
                    were allowable, allocable, and reasonable.
                                               and reasonable.

                    Of the $12,142,128 in selected costs
                    Of                                costs that
                                                            that the
                                                                  the State
                                                                      State agency
                                                                            agency claimed
                                                                                     claimed for
                                                                                             for reimbursement
                                                                                                   reimbursement for   for the
                                                                                                                            the
                    period September 1, 2004, through August 31, 2006, $6,430,983
                                                                               $6,430,983 was
                                                                                            was allowable.
                                                                                                  allowable. However,
                                                                                                                 However,
                    $5,711,145 was unallowable because the   the State
                                                                  State agency
                                                                         agency advanced
                                                                                 advanced funds
                                                                                           funds to to aa subrecipient
                                                                                                          subrecipient that
                                                                                                                          that did
                                                                                                                                did
                    not obligate and
                                 and disburse
                                      disburse the
                                               the funds
                                                    fuds within
                                                          withinthethe specified
                                                                        specified program
                                                                                  program period. In   Inaddition,
                                                                                                           addition, the
                                                                                                                      the
                    subrecipient earned
                                  eared interest
                                         interesttotaling
                                                  totaling $215,783
                                                           $215,783 on  on program funds
                                                                                     fuds that
                                                                                           thatititdid
                                                                                                    didnotnotremit
                                                                                                              remit to
                                                                                                                     to the
                                                                                                                         the
                    Federal Government
                            Governent asasrequired.
                                             required.These
                                                         Thesedeficiencies
                                                                 deficienciesoccurred
                                                                               occurredbecause
                                                                                         becausethe theState
                                                                                                          Stateagency
                                                                                                                agency(1) (1) did
                                                                                                                              did
                    not
                    not have suffcient
                             sufficientprocedures
                                        proceduresto toensure
                                                        ensurethat
                                                                 thatsubrecipients
                                                                      subrecipientsobligated
                                                                                     obligatedand
                                                                                                andexpended
                                                                                                      expendedfunds
                                                                                                                  funds within
                                                                                                                           within
Page 2 – RADM W. Craig Vanderwagen, Elizabeth M. Duke


the period specified in the grant awards and (2) was not aware of the requirement to remit
interest to the Federal Government.

We recommend that the State agency refund $5,711,145 in unallowable costs; remit $215,533 in
interest earned on program funds ($215,783 less $250 allowed to be retained pursuant to Federal
regulations); remit any additional interest earned after the completion of our fieldwork, less the
amount allowed to be retained pursuant to Federal regulations; and institute procedures to ensure
that subrecipients obligate and expend funds within the periods specified in the grant awards.

In written comments on our draft report, the State agency agreed to refund all interest earned on
advances to a subrecipient except for $37,039 that the State agency said the subrecipient used for
hospital preparedness. The State agency did not agree with our finding that a subrecipient did
not expend $5,711,145 in grant funds within the appropriate period. However, nothing in the
State agency’s comments caused us to change our finding or recommendations.

If you have any questions or comments about this report, please do not hesitate to call me, or your
staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal Activities, and
Information Technology Audits, at (202) 619-1175 or through e-mail at Lori.Pilcher@oig.hhs.gov or
Peter J. Barbera, Regional Inspector General for Audit Services, Region IV, at (404) 562-7800 or
through e-mail at Peter.Barbera@oig.hhs.gov. Please refer to report number A-04-07-01049.


Attachment
                                   DEPARTMENT                  OF
                                   DEPARTMENT OF HEALTH AND HUMAN     HEALTH
                                                                  SERVICES Offce AND HUMAN SERVICES                 Office oflnspector
                                                                                                                           oflnspector    General
     ~s.f.llVICIS
                                                                                                                     Offce of
                                                                                                                     Office    of Audit
                                                                                                                                   Audit Services

                                                                                                                           REGION
                                                                                                                           REGION IV
(gt..ltol                                                                                                     61 Forsyth Street,
                                                                                                                         Street, S.W.,
                                                                                                                                 S.W., Suite
                                                                                                                                       Suite 3T41
                                                                                                                                             3T41
    ¿:;
"1,¡1v                                                                                                             Atlanta, Georgia
                                                                                                                   Atlanta,  Georgia 30303
                                                                                                                                     30303


                                                                  DEC
                                                                  DEC 11112008

                                                                           2008

                           Number: A-04-07-01049
                    Report Number:

                            E. Williamson,
                    Donald E.  Wiliamson, M.D.
                    State Health Officer
                    AlabamaDepartment
                    Alabama   Deparent ofofPublic
                                           Public Health
                                                  Health
                    RSA Tower, Suite 1552, Monroe Street
                    Montgomery, Alabama
                    Montgomery,   Alabama 36130-3017

                         Dr. Williamson:
                    Dear Dr. Willamson:

                    Enclosed
                    Enclosed is the is
                                    U.S.the  U.S.of Department of Health
                                         Deparment                            andServces
                                                                  Health and Human   Human
                                                                                         (HHS), Services
                                                                                                Offce of 
 (HHS), Office of Inspector
                    General (DIG),(GIG), final report entitled "Allowability of        of Costs Claimed for Reimbursement Under
                    Alabama's Bioterrorism
                                       Bioterrorism Hospital
                                                       Hospital Preparedness
                                                                Preparedness Program Program for the Period September 1,2004,1,2004,
                    Through August August 31, 2006."
                                               31,  2006." We wil forward a copy ofthis report to the HHS action official
                                                              will  forward        a copy   ofthis     report to the HHS action
                    noted on the following page for review and any action deemed necessary.

                        HHS action official
                    The HHS           offcial wil
                                              willmake
                                                   makefinal
                                                        finaldetermination
                                                              determinationasastotoactions
                                                                                    actionstaken
                                                                                            takenononall
                                                                                                      all matters
                                                                                                          matters reported.
                                                                                                                    reported.
                    We request that you respond to this official
                                                         official within
                                                                  within 30
                                                                         30 days
                                                                            days from
                                                                                   from the  date of
                                                                                         the date ofthis
                                                                                                     this letter.
                                                                                                           letter. Your
                    response should present any comments or additional information that you believe may have a
                    bearng
                    bearing on
                            on the final determination.
                                         determination.

                    Pursuant
                    Pursuant to theto  the principles
                                    principles of          of the   Freedom
                                                              the Freedom of 
  of Information Act, 5 U.S.C. § 552, as amended by
                    Public Law 104-231, OIG           DIG reports generally are made available to the public to the extent the
                    information is      is not
                                            not subject
                                                  subject to
                                                           to exemptions
                                                               exemptions in   in the
                                                                                   theAct
                                                                                      Act(45
                                                                                          (45CFR
                                                                                              CFRpart
                                                                                                   par 5).
                                                                                                       5). Accordingly,
                                                                                                           Accordingly, this report
                    wil be
                    will   beposted
                                posted on   on the
                                                 the Internet
                                                      Internet at
                                                                at http://oig.hhs.gov.
                                                                    http://oig.hhs.gov.

                    If you have any questions or comments about this report, please do not hesitate to call me, or
                                 Drake, Audit
                    contact John Drake, Audit Manager,
                                               Manager, at
                                                         at (404)
                                                            (404) 562-7755
                                                                  562-7755 or
                                                                            orthrough
                                                                               though e-mail at
                    John.DrakeØ)oig.hhs.gov. Please
                    John.Drake@oig.hhs.gov.    Please refer to report number A-04-07-01049 in all correspondence.
                                                                                                   correspondence.

                                                                          Sincerely,

                                                                        (f~~ó1~
                                                                          Peter J. Barbera
                                                                          Regional Inspector General
                                                                           for Audit Services


                    Enclosure
Page 2 – Donald E. Williamson, M.D.


Direct Reply to HHS Action Official:

Mr. Jay Petillo
Director of Resource Planning and Evaluation
Assistant Secretary for Preparedness and Response
200 Independence Avenue SW., Room 624D
Washington, DC 20201
Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 




   ALLOWABILITY OF COSTS
CLAIMED FOR REIMBURSEMENT
      UNDER ALABAMA’S
   BIOTERRORISM HOSPITAL
PREPAREDNESS PROGRAM FOR
  THE PERIOD SEPTEMBER 1,
 2004, THROUGH AUGUST 31,
           2006




                    Daniel R. Levinson

                     Inspector General 


                      December 2008

                      A-04-07-01049

                    Office of Inspector General
                                      http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                            Notices
                            Notices



       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the principles of the Freedom of Information
                                              Information Act, 5 U.S.C.
§ 552, as amended by Public Law 104-231, Office of Inspector General
reports generally are made available to the public to the extent the
                                                             part 5).
information is not subject to exemptions in the Act (45 CFR part

 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices
                                              practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Under section 319 of the Public Health Service Act, the Bioterrorism Hospital Preparedness
Program (the program) provides funds to State, territorial, and municipal governments or health
departments to upgrade the preparedness of hospitals and collaborating entities to respond to
bioterrorism and other public health emergencies. From April 2002 to March 2007, the Health
Resources and Services Administration (HRSA) administered the program. In March 2007, the
Pandemic and All-Hazards Preparedness Act (P.L. No. 109-417, December 19, 2006) transferred
responsibility for the program from HRSA to the Assistant Secretary for Preparedness and
Response.

In Alabama, the Department of Public Health (the State agency) administers the program. For
the period September 1, 2004, through August 31, 2006, the State agency claimed program
reimbursement totaling $18.1 million. We reviewed $12.1 million of this reimbursement.

OBJECTIVE

Our objective was to determine whether selected costs that the State agency claimed for
reimbursement under the program for the period September 1, 2004, through August 31, 2006,
were allowable, allocable, and reasonable.

SUMMARY OF FINDINGS

Of the $12,142,128 in selected costs that the State agency claimed for reimbursement for the
period September 1, 2004, through August 31, 2006, $6,430,983 was allowable. However,
$5,711,145 was unallowable because the State agency advanced funds to a subrecipient that did
not obligate and disburse the funds within the specified program period. In addition, the
subrecipient earned interest totaling $215,783 on program funds that it did not remit to the
Federal Government as required. These deficiencies occurred because the State agency (1) did
not have sufficient procedures to ensure that subrecipients obligated and expended funds within
the period specified in the grant awards and (2) was not aware of the requirement to remit
interest to the Federal Government.

RECOMMENDATIONS

We recommend that the State agency:

   •   refund $5,711,145 in unallowable costs;

   •   remit $215,533 in interest earned on program funds ($215,783 less $250 allowed to be
       retained pursuant to Federal regulations);



                                                 i
   •   remit any additional interest earned after the completion of our fieldwork, less the amount
       allowed to be retained pursuant to Federal regulations; and

   •   institute procedures to ensure that subrecipients obligate and expend funds within the
       periods specified in the grant awards.

STATE AGENCY COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the State agency agreed to refund all interest earned on
advances to a subrecipient except for $37,039 that the State agency said the subrecipient used for
hospital preparedness. The State agency did not agree with our finding that a subrecipient did
not expend $5,711,145 in grant funds within the appropriate period. However, nothing in the
State agency’s comments caused us to change our findings or recommendations. The State
agency’s comments, except for personally identifiable information, are included as Appendix B.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
              Bioterrorism Hospital Preparedness Program...................................................1
              Alabama Program Funding ...............................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................2
               Objective ...........................................................................................................2
               Scope.................................................................................................................2
               Methodology .....................................................................................................3

FINDINGS AND RECOMMENDATIONS .........................................................................4

          UNALLOWABLE PROGRAM COSTS......................................................................4
              Federal Regulations ..........................................................................................4
              Program Funds Not Spent Within Program Period and Unearned
                Performance Fees ..........................................................................................5

          INTEREST EARNED ON PROGRAM FUNDS.........................................................6

          RECOMMENDATIONS..............................................................................................6

          STATE AGENCY COMMENTS.................................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................7
               Interest Earned on Advances to the Alabama Hospital Association.................7
               Grant Funds Expended Appropriately ..............................................................7
               Expenditures Claimed Pursuant to Guidance ...................................................8
               Time Between Advancing and Spending Funds................................………...9

APPENDIXES

          A – AWARDS TO THE ALABAMA HOSPITAL ASSOCIATION

          B – STATE AGENCY COMMENTS




                                                                    iii
                                              INTRODUCTION

BACKGROUND

Bioterrorism Hospital Preparedness Program

The Bioterrorism Hospital Preparedness Program (the program) provides funds to State,
territorial, and municipal governments or health departments to upgrade the preparedness of
hospitals and collaborating entities to respond to bioterrorism and other public health
emergencies. 1 From April 2002 to March 2007, the Health Resources and Services
Administration (HRSA) administered the program. In March 2007, the Pandemic and All-
Hazards Preparedness Act (P.L. No. 109-417, December 19, 2006) transferred responsibility for
the program from HRSA to the Assistant Secretary for Preparedness and Response (ASPR).

HRSA elected to establish 12-month program years for 2003 through 2005 and then extended the
years for up to 24 additional months for certain costs if a grantee requested a time extension to
spend the funds. 2 HRSA issued a notice of award to each grantee to set forth the approved
budget as well as the terms and conditions of the individual cooperative agreement.

To monitor the expenditure of these funds, HRSA required grantees to submit financial status
reports (FSR) showing the amounts expended, obligated, and unobligated. Financial reporting
requirements (45 CFR § 92.41(b)(3)) for Department of Health and Human Services (HHS)
grants to State and local governments state: “If the Federal agency does not specify the
frequency of the report, it will be submitted annually.” Because program guidance for 2003 was
silent on the frequency of submission, annual FSRs were required for that year. Program
guidance for 2004 and 2005 required quarterly interim FSRs and a final FSR 90 days after the
end of the budget period, which we refer to in this report as a “program year.”

Alabama Program Funding

In Alabama, the Department of Public Health (the State agency) administers the program and
distributes funds to subrecipients to carry out program objectives. During our audit period
(September 1, 2004, through August 31, 2006), HRSA awarded program funds totaling
$15.3 million to the State agency: $8 million for the period September 1, 2004, through
February 28, 2006, and $7.3 million for the period September 1, 2005, through August 31, 2007.
In addition, during our audit period, as part of a no-cost extension, HRSA permitted the State

1
 Congress initially authorized funding for this program under the Department of Defense and Emergency
Supplemental Appropriations for Recovery From and Response to Terrorist Attacks on the United States Act, 2002,
P.L. No. 107-117, through the Public Health and Social Services Emergency Fund at section 319 of the Public
Health Service Act (42 U.S.C. § 247d). In June 2002, Congress enacted section 319C-1 of the Public Health
Service Act (42 U.S.C. § 247d-3a) to support efforts to counter potential terrorist threats and other public health
emergencies.
2
 For Alabama, program year 2003 was September 1, 2003, through August 31, 2004, which was extended to
August 31, 2005, for certain costs; program year 2004 was September 1, 2004, through August 31, 2005, which was
extended to February 28, 2006, for certain costs; and program year 2005 was September 1, 2005, through August 31,
2006, which was extended to August 31, 2007, for certain costs.



                                                         1
agency to spend $4.9 million that had been awarded prior to September 1, 2004. Consequently,
the State agency had a total of $20.2 million in program funds available during our audit period.
During that period, the State agency reported total expenditures of $18.1 million. The State
agency awarded $12.3 million of this amount to subrecipients and reported expending
$5.8 million at the State level.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether selected costs that the State agency claimed for
reimbursement under the program for the period September 1, 2004, through August 31, 2006,
were allowable, allocable, and reasonable.

Scope

Our audit covered $12.1 million in direct and indirect costs that the State agency claimed for
program activities during the 2-year period September 1, 2004, through August 31, 2006,
regardless of the program year to which the expenditures were related. The $12.1 million
consisted of $6.3 million in reported subrecipient expenditures and $5.8 million in reported State
expenditures. We limited our review of State agency and subrecipient expenses to payroll,
travel, supplies, and services.

To test subrecipient expenses, we first selected two subrecipient awards for review: one award
to the Alabama Hospital Association (AHA), a nonprofit organization located in Montgomery,
Alabama, and one award to the University of South Alabama, located in Mobile, Alabama. We
were unable to test any expenses for the award to AHA because, at the time we began our
fieldwork, AHA had not spent any of this award, even though the State agency had reported the
award as an expenditure. Because AHA had not spent the funds for the award that we selected,
we expanded our review to include the nine other awards to AHA during our audit period. (See
Appendix A.)

We did not review approximately $5.9 million that the State agency awarded to subrecipients
other than AHA and the University of South Alabama. Consequently, we offer no conclusions
concerning the allowability of costs associated with these awards.

We did not review the overall internal control structure of the State agency or its subrecipients.
We limited our review of internal controls to obtaining an understanding of (1) the procedures
that the State agency and two subrecipients, AHA and the University of South Alabama, used to
account for program funds and (2) the State agency’s subrecipient monitoring procedures.

We performed fieldwork at the State agency in Montgomery, Alabama, from November 2006 to
October 2007.




                                                 2
Methodology

To accomplish our objective, we:

    •    reviewed applicable Federal and State laws, regulations, program guidance, and notices
         of award for 2004 and 2005;

    •    identified awarded and expended funds in the State agency’s accounting records as of
         August 31, 2006;

    •    reviewed $6.2 million that the State agency reported as AHA expenditures;

    •    reviewed $5.8 million in reported expenditures at the State agency level to determine
         whether the State agency expended program funds for allowable, allocable, and
         reasonable costs;

    •    reviewed $200,038 of expenditures claimed by the University of South Alabama to
         determine whether the university expended program funds for allowable, allocable, and
         reasonable costs;

    •    verified that the State agency claimed indirect costs using the rate and base in its “State
         and Local Rate Agreement” approved by the HHS Division of Cost Allocation; 3

    •    tested FSRs for completeness and accuracy and reconciled the amounts reported on FSRs
         to the accounting records and notices of award;

    •    reviewed the State agency and subrecipients’ accounting procedures for recording and
         reporting funds;

    •    reviewed documentation from the University of South Alabama that supported its
         program expenditures;

    •    reviewed positions funded by the program during 2005 for evidence of supplanting; 4

    •    obtained a list of the State agency’s drawdowns from the Payment Management System
         and compared them with the amounts expended to ensure that drawdowns did not exceed
         expenditures;


3
 The Office of Management and Budget has designated the Division of Cost Allocation as the cognizant Federal
agency for reviewing and negotiating facility and administrative (indirect) cost rates that grantee institutions use to
charge indirect costs associated with conducting Federal programs.
4
 Section 319C-1(j)(2) of the Public Health Service Act (42 U.S.C. § 247d-3a(j)(2)) states that program funds are
meant to augment current funding and not to replace or supplant any other State and local funds provided for these
activities. This provision was deleted in December 2006 by P.L. No. 109-417 and replaced with a requirement for
State matching funds.



                                                           3
   •   obtained information from AHA concerning the awards received from the State agency,
       the amounts that AHA spent from these awards, the periods in which the funds were
       spent, and the interest earned on these awards as of the completion of our fieldwork;

   •   quantified the administrative costs (referred to as “performance fees” in the agreements
       between the State agency and AHA) that AHA claimed; and

   •   evaluated the State agency’s procedures for monitoring subrecipients.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

Of the $12,142,128 of selected costs that the State agency claimed for reimbursement for the
period September 1, 2004, through August 31, 2006, $6,430,983 was allowable. However,
$5,711,145 was unallowable because the State agency advanced funds to a subrecipient that did
not obligate and disburse the funds within the specified program period. In addition, the
subrecipient earned interest totaling $215,783 on program funds that it did not remit to the
Federal Government as required. These deficiencies occurred because the State agency (1) did
not have sufficient procedures to ensure that subrecipients obligated and expended funds within
the period specified in the grant awards and (2) was not aware of the requirement to remit
interest to the Federal Government.

UNALLOWABLE PROGRAM COSTS

Federal Regulations

Federal regulations provide guidance on when funds should be made available to recipients and
subrecipients to carry out program activities.

Pursuant to 45 CFR § 92.21(b), Federal agencies must make payments to State and local
governments in a manner that “shall minimize the time elapsing between the transfer of funds
and disbursement by the grantee or subgrantee . . . .” Furthermore, 45 CFR § 92.21(c) provides
that “[g]rantees and subgrantees shall be paid in advance, provided they maintain or demonstrate
the willingness and ability to maintain procedures to minimize the time elapsing between the
transfer of the funds and their disbursement by the grantee or subgrantee.”

Pursuant to 45 CFR § 92.37(a)(1) and (4), States must “[e]nsure that every subgrant includes any
clauses required by Federal statute and executive orders and their implementing regulations” and
“[c]onform any advances of grant funds to subgrantees substantially to the same standards of
timing and amount that apply to cash advances by Federal agencies.” Similar requirements




                                               4
(45 CFR § 74.22(b)(2)) apply to grants and cooperative agreements with institutions of higher
education, hospitals, other nonprofit organizations, and commercial organizations:

       . . . cash advances to a recipient organization shall be limited to the minimum
       amounts needed and be timed to be in accordance with the actual, immediate cash
       requirements of the recipient organization in carrying out . . . the approved
       program or project. The timing and amount of cash advances shall be as close as
       is administratively feasible to the actual disbursements by the recipient
       organization for direct program or project costs . . . .

Federal regulations also govern when costs may be charged to awards. Concerning State
government recipients, 45 CFR § 92.23(a) and (b) state:

       Where a funding [program] period is specified, a grantee may charge to the award
       only costs resulting from obligations of the funding [program] period unless
       carryover of unobligated balances is permitted, in which case the carryover
       balances may be charged for costs resulting from obligations of the subsequent
       funding [program] period . . . . A grantee must liquidate all obligations incurred
       under the award not later than 90 days after the end of the funding period . . . .

Similar requirements can be found at 45 CFR §§ 74.28 and 74.5 concerning awards and
subawards to institutions of higher learning, hospitals, and other recipients. Pursuant to 45 CFR
§ 74.28: “Where a funding period is specified, a recipient may charge to the award only
allowable costs resulting from obligations incurred during the funding period . . . .”

In addition, Federal regulations require that for a cost to be allowable, it must be allocable to a
particular Federal award (2 CFR part 225, App. A, § C.1.b (formerly OMB Circular A-87) and
2 CFR part 230, App. A, § A.2.a (formerly OMB Circular A-122)). A cost is allocable only if
the goods or services being charged to the award are in accordance with the “relative benefits
received” (2 CFR part 224, App. A, § C.3.a and 2 CFR part 230, App. A, § A.4.a).

Program Funds Not Spent Within Program Period and Unearned Performance Fees

The State agency claimed $5,711,145 in unallowable program costs because it advanced funds to
AHA, which did not, in turn, disburse them within the program period, and because AHA
claimed unearned performance fees associated with these awards.

As shown in Appendix A, the State agency made 10 awards totaling $6,173,849 to AHA during
program years 2004 and 2005. The State agency made some of these awards at the end of the
program years. As of the end of program years 2004 and 2005, AHA had not spent $5,711,145
of the $6,173,849 that the State agency had advanced. The program periods during which these
funds were required to be expended for program purposes varied. If the State agency did not
request an extension of time to disburse the awards, the program period was 12 months. On the
other hand, if an extension was requested, the program period could be longer than 12 months.
In either situation, the funds should have been used for program purposes during the respective
program period. (See Appendix A.) Absent approved carryover, these funds were available only



                                                  5
to cover allowable costs of the particular program year. Because these funds were not used to
obtain goods or services benefiting the particular grant awards, the costs claimed by the State
agency were not allocable to this grant and were therefore unallowable.

The State agency considered the funds advanced to AHA to be expenses at the time of the
advances. The State agency did not have policies and procedures to ensure that AHA obligated
and expended grant funds within the period specified in the grant award. According to the State
agency, it believed that AHA needed the funds in advance to make arrangements with individual
hospitals to provide services.

The $5,711,145 in unallowable costs that the State agency claimed included performance fees.
Performance fees, which were provided for in the subrecipient agreements, were intended to pay
subrecipients for the administrative costs associated with administering the agreements.
Performance fees for the individual agreements ranged from 5 to 10 percent. AHA claimed these
fees even though it had not spent most of the program funds and therefore had not earned the
fees. We considered $177,317 in performance fees to be unallowable because AHA claimed
them for particular awards from which there were no corresponding expenditures for goods and
services within the specified program period.

INTEREST EARNED ON PROGRAM FUNDS

Federal regulations (45 CFR § 74.22(l)) state that “. . . interest earned [in excess of $250] on
Federal advances . . . shall be remitted annually to the Department of Health and Human
Services . . . .”

As of the end of our fieldwork, AHA had earned interest totaling $215,783 on advances from the
State agency but had not remitted the interest to HHS as required. Neither the State agency nor
AHA was aware of the requirement to remit interest income to the Federal Government.

RECOMMENDATIONS

We recommend that the State agency:

     •   refund $5,711,145 in unallowable costs;

     •   remit $215,533 in interest earned on program funds ($215,783 less $250 allowed to be
         retained pursuant to Federal regulations);

     •   remit any additional interest earned after the completion of our fieldwork, less the
         amount allowed to be retained pursuant to Federal regulations; and

     •   institute procedures to ensure that subrecipients obligate and expend funds within the
         periods specified in the grant awards.




                                                 6
STATE AGENCY COMMENTS

In written comments on our draft report, the State agency agreed to refund all interest earned on
advances to AHA except for $37,039 that the State agency said AHA used for hospital
preparedness. The State agency did not agree with our finding that AHA did not properly
expend $5,711,145 in grant funds for the following reasons:

      •   The State agency contended that it expended the funds appropriately under a generally
          accepted accounting principle, cash accounting; therefore, AHA had an additional
          3 years to expend the funds under State law.

      •   The State agency said that it claimed expenditures pursuant to HRSA and ASPR
          guidance. The State agency referenced e-mail correspondence from both HRSA and
          ASPR that, according to the State agency, justified its claiming advances to AHA as
          expenses.

      •   The State agency said that it had minimized the time between the transfer of funds to
          AHA and AHA’s disbursement of the funds, given the requirement to achieve program
          purposes. The State agency further asserted that the requirement to time advances to
          AHA’s immediate needs was inconsistent with meeting program purposes and cited 45
          CFR § 74.22(b)(2) 5 to support its assertion.

The State agency’s comments, except for personally identifiable information, are included as
Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

Interest Earned on Advances to the Alabama Hospital Association

The State agency should seek guidance from HRSA and ASPR regarding the allowability of
AHA’s use of $37,039 in interest earned on grant funds for hospital preparedness without prior
approval.

Grant Funds Expended Appropriately

Neither grant regulations nor we prescribe a particular accounting method, cash basis or
otherwise. The State agency elected to use cash accounting and claimed expenses at the time
cash was disbursed. Regardless of the accounting method used, the State agency and its
subrecipients are required to adhere to Federal regulations that stipulate that a recipient may
charge to an award only allowable costs resulting from obligations incurred during the funding
period. The State agency’s practice of advancing grant funds to AHA and immediately claiming
the advances as expenses under cash accounting does not meet this requirement.

5
 Title 45 CFR § 74.22(b)(2) states: “Unless inconsistent with statutory program purposes, cash advances to a
recipient organization shall be limited to the minimum amounts needed and be timed to be in accordance with the
actual, immediate cash requirements of the recipient organization in carrying out the purpose of the approved
program or project.”



                                                        7
Specifically, 45 CFR § 74.28 (made applicable to AHA by 45 CFR § 74.5) requires that “[w]here
a funding period is specified, a recipient may charge to the award only allowable costs resulting
from obligations incurred during the funding period . . . .” The HHS Departmental Appeals
Board (DAB) has consistently held that “expenditures that are incurred outside the grant term are
not allocable to the grant activities for which the grant was originally awarded” (Huron
Potawatomi, Inc., DAB No. 1889 (2003), and Arlington Community Action Program, Inc., DAB
No. 2141 (2008)).

The notices of award gave the State agency a 12-month period to expend grant funds. When the
State agency transferred the funds to AHA, the funds were still considered Federal grant funds,
and AHA should have spent them within the funding period specified in the notices of award.
Even though State law may have given AHA 3 years to complete its work, the State agency’s
funding of AHA activities should have been more precisely matched to AHA’s need for funds
throughout the HRSA-approved budget periods.

No-cost extensions are available to address situations in which funds cannot be spent during a
given funding period. Under a no-cost extension, the awarding agency grants a recipient
additional time to spend funds for goods and services and to claim costs as expenses when the
funds are actually spent. The State agency requested and received no-cost extensions for some
of the funds we questioned, but AHA still did not spend all the funds by the end of the extension.
In other instances, the State agency disbursed the funds to AHA within the original funding
period and reported the funds to HRSA as expended. Because the State agency had reported the
funds as expended, a no-cost extension was not an option, so AHA had only the 12-month
program period during which to obligate and expend the funds. However, AHA did not expend
all the funds within that period. The State agency should not have advanced the funds to AHA
and should have requested a no-cost extension in these instances.

Expenditures Claimed Pursuant to Guidance

We disagree that the e-mail correspondence from HRSA and ASPR justified the State agency’s
practice of claiming advances as expenses. The correspondence from HRSA supports our
contention that AHA was required to disburse grant funds within the program period. In a
May 24, 2007, e-mail, a HRSA official told the State agency: “If the funds are obligated for a
specific purpose and those obligated funds are not liquidated/spent [by AHA] by the end of the
project period 6 then they are not considered spent.”

In an e-mail dated June 26, 2007, the State agency provided ASPR with details (including
completion dates) of two awards to AHA to purchase antibiotics and to increase hospital surge
capacity. However, the State agency did not tell ASPR that the funds in question were awarded
during the September 2004 through August 2005 program year and were disbursed to AHA in
September 2005 and March 2006, respectively. In both instances, the State agency disbursed the
funds to AHA after the program year had ended. Consequently, ASPR approved the State
agency’s use of funds without full disclosure of the facts concerning those funds.


6
 The term “project period,” which is used in this e-mail correspondence, is synonymous with the term “program
year,” which we chose to use. (See footnote 2.)



                                                        8
Time Between Advancing and Spending Funds

The State agency said that the regulation that we cited (45 CFR § 74.22(b)(2)) as requiring it to
limit and minimize the timing of cash advances also exempted the State agency from following
the regulation when its requirements were inconsistent with statutory program purposes. The
State agency said that program guidance and the statutory requirements (section 319 C-1 of the
Public Service Act) to achieve program purposes were inconsistent with 45 CFR § 74.22(b)(2)
and that the State agency was, accordingly, exempt from the CFR’s requirements. However, 45
CFR part 74 pertains to grants and cooperative agreements with institutions of higher education,
hospitals, other nonprofit organizations, and commercial organizations and would apply to any
cash advances that AHA may have made. The State agency is required to follow 45 CFR
§ 92.21, which does not contain the same “[u]nless inconsistent with statutory program
purposes” exemption. However, even if the applicable part 92 regulation contained such an
exemption, we found nothing in section 319 C-1 that would exempt the State agency from
complying with the grant regulations.

Regarding the performance fees charged by AHA, we requested during our fieldwork that AHA
provide documentation to support the fees. The only documentation that we received showed
that AHA prorated the fees over the grant period. Although the State agency claimed that AHA
earned the fees because it had accomplished work, the State agency provided no documentation
of that work, and, in most instances, AHA incurred no actual expenses for goods and services
during the period for which it claimed the fees. Therefore, we continue to recommend that the
State agency refund the fees.

We continue to recommend that the State agency refund to the Federal Government $5,711,145
for unallowable expenses claimed for budget years 2005 and 2006.




                                                9
APPENDIXES
                                                                                               APPENDIX A

                  AWARDS TO THE ALABAMA HOSPITAL ASSOCIATION


                                                                                                  Funds
                                                                                              Unexpended at
                                 Date                                        Amount           the End of the
                                                                     1
         Description           Awarded            Program Year               Awarded          Program Year
    Mass casualty hospital     Oct. 2004       Sept. 2003–Aug. 2005           $887,864              $887,864
    Personal protective
    equipment and
    decontamination            Oct. 2004       Sept. 2003–Aug. 2005           1,270,439               1,270,439
    Sentinel
    Laboratory Program         Aug. 2005       Sept. 2003–Aug. 2005               85,696                 85,696
    Satellite conference
    downlink systems          Aug. 2005 Sept. 2004–Aug. 2005                    450,000                 173,150
    Cache of antibiotics      Sept. 2005 2 Sept. 2004–Aug. 2005                 565,850                 565,850
    Cache of antibiotics      Dec. 2005 Sept. 2005–Aug. 2006                    600,000                 600,000
    Patient conveyor
    system                     Feb. 2006       Sept. 2005–Aug. 2006             389,000                 389,000
    Cache of medical
    supplies/equipment         Mar. 2006 2     Sept. 2004–Feb. 2006           1,500,000               1,500,000
    Emergency
    preparedness exercise      Feb. 2006       Sept. 2005–Aug. 2006             175,000                    7,500
    Sentinel Laboratory
    Program                    July 2006       Sept. 2005–Aug. 2006             250,000                231,646
         Total                                                               $6,173,849             $5,711,145




1
 The State agency made some of the awards to the Alabama Hospital Association (AHA) during the original
12-month program year. For other awards, the State agency requested a time extension to pay the funds to AHA.
Accordingly, the program period (the period during which the funds could be spent) was 12 months for some awards
and longer for other awards.
2
 The State agency obligated both of these awards to AHA within the program years (ended August 2005 and
February 2006, respectively) to report them as expended. However, the State agency did not award the funds to
AHA until after the program year ended.
APPENDIX B
  Page 1 of 18
APPENDIX B
  Page 2 of 18
APPENDIX B
  Page 3 of 18
APPENDIX B
  Page 4 of 18
APPENDIX B
  Page 5 of 18
APPENDIX B
  Page 6 of 18
APPENDIX B
  Page 7 of 18
APPENDIX B
  Page 8 of 18
APPENDIX B
  Page 9 of 18
APPENDIX B
 Page 10 of 18
APPENDIX B
 Page 11 of 18
APPENDIX B
 Page 12 of 18
APPENDIX B
 Page 13 of 18
APPENDIX B
 Page 14 of 18
APPENDIX B
 Page 15 of 18
APPENDIX B
 Page 16 of 18
APPENDIX B
 Page 17 of 18
APPENDIX B
 Page 18 of 18
